                                                     TABLE OF CONTENTS


                                       INSPECTOR GENERAL’S MESSAGE                  i
                                       NCUA AND OFFICE OF INSPECTOR GENERAL
                                                                                    1
                                         MISSION STATEMENTS
                                       INTRODUCTION                                 2
                                       NCUA ORGANIZATIONAL CHART                    5
                                       NCUA HIGHLIGHTS                              6
                                       FEDERALLY INSURED CREDIT UNIONS HIGHLIGHTS   9
                                       LEGISLATIVE HIGHLIGHTS                       11
                                       OFFICE OF THE INSPECTOR GENERAL              13
                                          AUDIT ACTIVITY                            15
                                          INVESTIGATIVE ACTIVITY                    21
                                          LEGISLATIVE AND REGULATORY REVIEWS        24

SEMIANNUAL REPORT TO                   TABLE I – REPORTS WITH QUESTIONED COSTS
                                       TABLE II – REPORTS WITH RECOMMENDATIONS
                                                                                    26

                                                                                    27
THE   CONGRESS                           THAT FUNDS BE PUT TO BETTER USE
                                       TABLE III – SUMMARY OF OIG ACTIVITY          28
                                       INDEX OF REPORTING REQUIREMENTS              29
  APRIL 1 — SEPTEMBER 30, 2006




 OFFICE OF THE INSPECTOR GENERAL
NATIONAL CREDIT UNION ADMINISTRATION
                                                               and professionalism of our small staff in accomplishing this
                                                               work.

                                                               Moreover, because the NCUA has been actively engaged
                                                               during this reporting period in negotiations for a
                                                               bargaining contract with the National Treasury Employees
                                                               Union, the Office of Investigations, under advisement of
                                                               the OIG Counsel, has striven to ensure that managers
                                                               representing NCUA at the bargaining table understand the
                                                               issue of union representation and employee rights during
          INSPECTOR GENERAL'S MESSAGE                          OIG investigative interviews. The OIG appreciates greatly
               TO THE NCUA BOARD                               the dialogue that ensued with agency representatives and
               AND THE CONGRESS                                feels comfortable that the unique role of the OIG within
                                                               NCUA will be represented accurately.
The National Credit Union Administration (NCUA) Office of
                                                               The OIG intends to continue its mandate to help promote
Inspector General (OIG) strives to carry out its mission to
                                                               systems security at NCUA. The OIG recognizes that one of
promote effectiveness in NCUA programs. This reporting
                                                               the most critical mandates for information system
period is no exception. In the past six months, the OIG
                                                               managers is to ensure systems integrity. As such, we
has been active on both the audit and investigative sides
                                                               have an important role in identifying potential as well as
of the office. On the audit side, while information security
                                                               existing problems, both one-time and systemic.
issues remained a major focus, we also completed an audit
of the agency’s oversight of indirect lending programs and
                                                               I would like to thank Chairman Johnson, Vice Chairman
are currently conducting reviews of NCUA’s risk-focused
                                                               Hood, and Board Member Hyland for their sustained
examination process as well as its Office of Foreign Assets
                                                               support of the OIG’s work. Our office is committed to
Control compliance program. On the investigative side, we
                                                               assisting the NCUA in ensuring the safety and soundness
investigated and reported on two employee misconduct
                                                               of credit unions as we work with the agency to achieve
cases involving allegations of false claims and sexual
                                                               needed changes and improvements in NCUA’s programs
harassment, respectively, and are currently investigating a
                                                               and activities.
criminal case involving unauthorized access of a
government computer by a former employee. We intend
to report fully on the completed investigation in our next
Semi-Annual Report. During this reporting period we also
responded to one request under the Freedom of
                                                                                                 William A. DeSarno
Information Act. I am proud of the continued commitment
                                                                                                 Inspector General


                             i                                                              ii
   OIG Semiannual Report                 September 2006               OIG Semiannual Report               September 2006



                THE NCUA MISSION
                                                                                     INTRODUCTION
NCUA’s charge is to foster the safety and soundness of
federally insured credit unions and to better enable the credit   The National Credit Union Administration (NCUA) was
union community to extend the availability of financial           established as an independent, federal regulatory agency on
services for provident and productive purposes to all who         March 10, 1970. The agency is responsible for chartering,
seek such service, while recognizing and encouraging credit       examining, supervising, and insuring federal credit unions. It
unions’ historical emphasis on extension of financial services    also insures state-chartered credit unions that have applied
to those of modest means.                                         for insurance and have met National Credit Union Share
                                                                  Insurance requirements. The NCUA is funded by the credit
The NCUA’s mission is accomplished by managing the                unions it supervises and insures. As of June 30, 2006, the
National Credit Union Share Insurance Fund in an efficient        NCUA was supervising and insuring 5,308 federal credit
and prudent manner through an effective supervision               unions and insuring 3,232 state-chartered credit unions, a
program and a regulatory environment that encourages              total of 8,540 institutions. This represents a decline of 85
innovation, flexibility and continued focus on attracting new     federal and 70 state-chartered institutions since December
members and improving financial service to existing               31, 2005, for a total decline of 155 credit unions nationwide,
members.                                                          primarily as a result of mergers.

                                                                  The NCUA operates under the direction of a Board composed
                                                                  of three members. Board members are appointed by the
                                                                  President and confirmed by the Senate. They serve six-year
                                                                  terms. Terms are staggered, so that one term expires every
 THE OFFICE OF INSPECTOR GENERAL MISSION                          two years. The Board is responsible for the management of
                                                                  the National Credit Union Administration, including the NCUA
The OIG promotes the economy, efficiency, and effectiveness       Operating Fund, the Share Insurance Fund, the Central
of NCUA programs and operations, and detects and deters           Liquidity Facility, and the Community Development Revolving
fraud, waste, and abuse, thereby supporting the NCUA’s            Loan Fund.
mission of monitoring and promoting safe and sound federally
insured credit unions.                                            The NCUA executes its program through its central office in
                                                                  Alexandria, Virginia and regional offices in Albany, New York;
We accomplish our mission by conducting independent audits,       Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and
investigations, and other activities, and by keeping the NCUA     Tempe, Arizona.       The NCUA also operates the Asset
Board and the Congress fully and currently informed of our        Management and Assistance Center (AMAC) in Austin, Texas.
work.                                                             Please refer to the NCUA organizational chart on page 5.

                              1                                                                 2
   OIG Semiannual Report                September 2006            OIG Semiannual Report                               September 2006




The NCUA Board adopted its 2006 budget of $150,788,525 on                                     NCUA Budget Dollars
November 29, 2005. The Full-Time Equivalent (FTE) staffing
authorization for 2006 is 958, a reduction of 3 positions from     Millions
the 2005 total of 961.                                                  152
                                                                        150
                                                                        148
                                                                        146
                                                                        144
                                                                        142
                                                                        140
           Federally Insured Credit Unions                              138
                                                                        136
                                                                        134
                                                                                2001      2002       2003      2004    2005   2006
12000
10000
8000 3980 3866 3735 3593
                         3442 3302
6000                                                                                          NCUA Authorized Staff
4000                                                             1200
        6336 6118 5953 5776 5572
                                 5393
2000                                                             1000

    0                                                  FISCUs    800
        2000 2001 2002 2003 2004 2005                  FCUs
                                                                 600

                                                                 400

                                                                 200

                                                                   0
                                                                         2001          2002        2003       2004     2005    2006




                              3                                                                           4
OIG Semiannual Report   September 2006      OIG Semiannual Report                 September 2006




  NCUA ORGANIZATIONAL CHART
                                                          NCUA HIGHLIGHTS
                                         CHAIRMAN JOHNSON SHARES RECOMMENDATIONS
                                         WITH PRESIDENT’S IDENTITY THEFT TASK FORCE

                                         NCUA Chairman JoAnn Johnson met with senior
                                         Administration officials on September 19, 2006, to share
                                         recommendations with the President’s Identity Theft Task
                                         Force. The Task Force, which includes U.S. Attorney General
                                         Alberto Gonzalez; Clay Johnson III, Deputy Director of the
                                         White House Office of Management and Budget; Michael
                                         Chertoff, Secretary of the Department of Homeland Security;
                                         Carlos M. Gutierrez, Secretary of Commerce; and other senior
                                         government officials, will work together to deliver a final
                                         strategic plan to President Bush in early November. During
                                         the September 19 meeting, Chairman Johnson and the other
                                         members of the Task Force discussed improving government
                                         handling of sensitive personal data; improving authentication
                                         methods of an individual’s identity; victim assistance; and law
                                         enforcement initiatives.

                                         VICE CHAIRMAN HOOD, BOARD MEMBER HYLAND
                                         SPEAK AT NAFCU CONGRESSIONAL CAUCUS

                                         During September 2006, NCUA Vice Chairman Rodney E.
                                         Hood and NCUA Board Member Gigi Hyland spoke before the
                                         National Association of Federal Credit Unions (NAFCU)
                                         Congressional Caucus in Washington D.C.           Both Vice
                                         Chairman Hood and Board member Hyland emphasized key
                                         priorities for the NCUA in the coming months, including data
                                         security, predatory lending, member business lending, and
                                         open communication



                   5                                                   6
   OIG Semiannual Report                 September 2006              OIG Semiannual Report                September 2006



NCUA CHAIRMAN JOANN JOHNSON ISSUES                                member vote on a proposed conversion and review the
STATEMENT ON UTAH DISMISSAL                                       methods and procedures of the vote. Chairman Johnson
                                                                  expressed NCUA’s support of the provisions of H.R. 3026 that
On July 21, 2006, bankers in the field-of-membership lawsuit      would require a secret ballot and an independent inspection
targeting an underserved area expansion in Utah agreed to a       of elections, as well as retain the 90, 60, and 30 day mailing
dismissal of that suit. The American Bankers Association,         requirement.
Utah Bankers Association, and several banks last December
challenged NCUA’s approval of an underserved area                 FINCEN, OFAC AND FFIEC MEMBERS REVISE
expansion for the community-based America First Federal           STANDARDS TO EVALUATE BSA COMPLIANCE
Credit Union of Ogden, Utah. NCUA issued a proposed rule          PROGRAMS
amending its chartering and field of membership policy in
January 2006. The rule became final on July 28, 2006.             The Federal Financial Institutions Examination Council
Chairman Johnson, in responding to the court’s dismissal of       (FFIEC), including NCUA, worked together with the Financial
the case, commented as follows: “Now that the legal process       Crimes Enforcement Network (FinCen) and the Office of
has concluded, NCUA is pleased that credit unions can now         Foreign Assets Control (OFAC) to revise existing guidance and
proceed knowing that there is clarity, and consumers in           standards to evaluate Bank Secrecy Act (BSA) and OFAC
underserved areas will have another choice in financial           compliance programs at financial institutions. On July 28,
services.”                                                        2006, the FFIEC issued the revised Bank Secrecy Act Anti-
                                                                  Money Laundering Examination Manual (BSA/AML), originally
CHAIRMAN JOHNSON TESTIFIES ON H.R. 3206,                          released in June 2005. The BSA/AML Manual was updated to
“CREDIT UNION CHOICE ACT”                                         further clarify supervisory expectations and incorporate
                                                                  regulatory changes since the manual’s 2005 release. Part 748
NCUA Chairman Johnson testified on May 11, 2006, before           of NCUA’s Rules and Regulations requires credit unions to
the House Subcommittee on Financial Institutions and              have a BSA compliance program and procedures. NCUA has
Consumer Credit on H.R. 3206, the “Credit Union Charter           further advised credit unions that they must have a policy on
Choice Act” and credit union conversions in general.              compliance with OFAC regulations which they may include
Chairman Johnson presented the Agency’s views on credit           within their existing BSA compliance policy.
union conversions to mutual savings banks and associations,
and noted there are fundamental issues at stake. In
particular, Chairman Johnson stated that credit unions are
nonprofit cooperatives that exist to promote thrift and provide
a source of affordable credit for their members rather than to
maximize profits to outside investors or stockholders. The
Federal Credit Union Act requires NCUA to administer the

                              7                                                                 8
   OIG Semiannual Report                 September 2006              OIG Semiannual Report                 September 2006



                                                                  LOANS INCREASED AND INVESTMENTS DECREASED
    FEDERALLY INSURED CREDIT UNION
              HIGHLIGHTS                                          Loan growth of 3.96 percent resulted in an increase in total
                                                                  loans by $18.2 billion. Total net loans of $473.1 billion
Credit unions submit quarterly call reports (financial and        comprise 67.9 percent of credit union assets. First mortgage
operational data) to the NCUA. An NCUA staff assessment of        real estate loans increased 5.75 percent and other real estate
the June 30, 2006, quarterly call reports submitted by all        loans increased 7.95 percent. First mortgage real estate
federally insured credit unions found that key financial          loans are the largest single asset category with $153.44
indicators were stable.                                           billion accounting for 32.21 percent of all loans. Other real
                                                                  estate loans of $79.26 billion account for 16.64% of all loans.
                                                                  Used car loans of $87.11 billion were 18.29% of all loans,
KEY FINANCIAL INDICATORS STABLE                                   while new car loans amounted to $86.56 billion or 18.17% of
                                                                  total loans.      Credit card loans totaled $23.93 billion or
Looking at the June 30, 2006 quarterly statistics for major       5.02% of total loans and other unsecured loans totaled
balance sheet items and key ratios shows the following for        $21.31 billion for 4.47% of total loans. The remaining 5.25%
the nation’s 8,540 federally insured credit unions: assets grew   of loans was $24.76 billion in other loans. Total investments
2.70 percent, or $18.32 billion; net worth to assets ratio        decreased 2.0 percent to $145.3 billion. Investments with
increased from 11.24 to 11.36 percent; the loan to share ratio    maturities less than one year increased 3.46 percent, while
increased from 79.33 percent to 80.24 percent; the                long term investments decreased 5.70 percent.
delinquency ratio decreased from .73 to .58 percent; and
credit union return on average assets increased from .85
percent to .86 percent.


SAVINGS INCREASED MARGINALLY

Total insured share accounts increased 2.78 percent, or
$16.05 billion. Regular shares comprise 33.05 percent of
total share accounts; share certificates increased 9.43
percent; money market shares increased .02 percent; and
share draft accounts decreased 4.05 percent.




                              9                                                                 10
    OIG Semiannual Report                 September 2006                OIG Semiannual Report                  September 2006



           LEGISLATIVE HIGHLIGHTS                                   currencies.     At an earlier Board meeting, NCUA staff
                                                                    presented a proposed amendment to an existing regulation to
                                                                    make changes to the official insurance sign. The final rule on
HOUSE, SENATE PASS “FINANCIAL SERVICES
                                                                    the official sign will be presented at the November Board
REGULATORY RELIEF ACT of 2006”
                                                                    meeting.

The U.S. Senate voted unanimously on September 30, 2006,            HOUSE COMMITTEE APPROVES NCUA FUNDING
in favor of the “Financial Services Regulatory Relief Act of
2006,” S. 2856, just two days after it was approved without
                                                                    The House Appropriations Committee approved legislation on
dissent by the U.S. House of Representatives.        The bill, if
                                                                    June 6, 2006, backing the Community Development Revolving
enacted into law, will modernize and improve the regulatory
                                                                    Loan Fund Program (CDRLF) with $941,000 for technical
structure under which credit unions operate, and enable them
                                                                    assistance grants to low-income designated credit unions in
to provide more up-to-date services to their members. The
                                                                    fiscal year 2007. In addition, the bill includes $1.5 billion
legislation will also allow for the redefinition of net worth
                                                                    borrowing for the Central Liquidity Facility (CLF) for fiscal year
following the merger of two healthy credit unions. Other
                                                                    2007. The CDRLF was established by Congress in 1979 with
credit union provisions included in the Senate Bill would
                                                                    a $6 million appropriation to demonstrate that low-income
permit land lease at only “nominal” cost when credit unions
                                                                    credit unions with technical assistance and limited financial
build on DOD facilities; raise the 12-year loan limit to at least
                                                                    assistance can play a role in providing needed financial and
15 years; and authorize federal credit unions to cash checks
                                                                    labor intensive services in their communities. Also formed in
and wire funds for anyone eligible to join the credit union.
                                                                    1979, the CLF is a government corporation owned by its
The bill, which was based in large part on H.R. 3505, was
                                                                    member credit unions. Managed by the NCUA Board, it
introduced in the Senate by Senator Mike Crapo (ID) on May
                                                                    provides financial stability by meeting the liquidity needs of
18, 2006.
                                                                    credit unions and thereby encourages savings and supports
                                                                    consumer and mortgage lending.
NCUA BOARD FINALIZES SHARE INSURANCE
COVERAGE

At its meeting on September 21, 2006, the NCUA Board
issued a final rule change to Part 745 of the Federal Credit
Union Act, implementing amendments to the Federal Deposit
Insurance Reform Act of 2005 and the Federal Deposit
Insurance Reform Conforming Amendments Act of 2005,
which increase share insurance coverage for certain accounts.
The rule also clarifies insurance coverage for qualified tuition
savings programs and share accounts denominated in foreign

                               11                                                                  12
   OIG Semiannual Report               September 2006            OIG Semiannual Report                        September 2006




   OFFICE OF THE INSPECTOR GENERAL
The Office of the Inspector General was established at the                       William DeSarno
NCUA in 1989 under the authority of the Inspector General
                                                                                        Inspector
Act of 1978, as amended in 1988. The staff consists of the                               General
Inspector General, Counsel to the Inspector General,
Assistant Inspector General for Audits, Director of
Investigations, two Senior Auditors, Senior Information
Technology Auditor, and Office Manager.
                                                                           Sharon
                                                                          Regelman
The Inspector General reports to, and is under the general
supervision of, the NCUA Board. The Inspector General is               Office Manager
responsible for:

1. Conducting, supervising, and coordinating audits and
investigations of all NCUA programs and operations;
                                                               Sharon Separ          Anne Voegele          Jim Hagen

2. Reviewing policies and procedures to ensure efficient and   Counsel to the          Director of       Assistant IG for
economic operations as well as preventing and detecting             IG               Investigations           Audits

fraud, waste, and abuse;

3. Reviewing      existing and proposed legislation and
regulations to evaluate their impact on the economic and
                                                                                     Charles                Dwight          Tammy Rapp,
efficient administration of agency programs; and                                 Funderburk, CPA         Engelrup, CPA       CPA, CISA

                                                                                     Senior Auditor      Senior Auditor      Senior IT
4. Keeping the NCUA Board and the Congress apprised of                                                                        Auditor
significant findings and recommendations.




                             13                                                                     14
      OIG Semiannual Report               September 2006              OIG Semiannual Report               September 2006



                                                                       encryption software to improve security of
                   AUDIT ACTIVITY                                      information stored on examiners’ laptop computers,
                                                                       and
                                                                  •    Completion of the Accreditation package for the
                                                                       NCUA General Support System (GSS).
AUDIT REPORTS ISSUED
                                                                While NCUA has made commendable progress in eliminating
OIG-06-05 – September 30, 2006                                  the significant deficiencies reported last year, our review this
INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION             year identified the following areas in IT security controls
ADMINISTRATION INFORMATION SECURITY PROGRAM 2006                where attention is required:

The Office of Inspector General for the National Credit Union     •    Procedures requiring the use of cryptographic
Administration engaged Grant Thornton LLP to conduct an                security measures for sensitive financial and
independent evaluation of its information systems and                  Personally Identifiable Information (PII) need better
security program and controls for compliance with the Federal          enforcement, and Privacy Impact Assessments (PIA)
Information Security Management Act (FISMA), Title III of              for its systems needs to be developed.
the E-Government Act of 2002.                                     •    Certification and accreditation (C&A) of all NCUA
                                                                       systems needs to be completed.
Grant Thornton evaluated NCUA’s security program through          •    Password and user account security configurations
interviews, documentation reviews, and sample testing. We              need improvement, including regular user account
evaluated NCUA against standards and requirements for                  reconciliations.
federal government agencies such as those provided through        •    Personnel security awareness training program needs
FISMA, National Institute of Standards and Technology                  to be fully implemented.
(NIST) Special Publications (SPs) and Federal Information
Processing Standards (FIPS), and Office of Management and       We also noted other suggestions in IT security controls that
Budget (OMB) memorandums.          We conducted an exit         management should consider.
conference with NCUA officials on September 6, 2006, to
discuss evaluation results.
                                                                OIG-06-06 – September 30, 2006
The NCUA made noticeable progress in strengthening its          OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION
Information Technology (IT) security program during Fiscal      ADMINISTRATION INFORMATION SECURITY PROGRAM
Year (FY) 2006. Notable accomplishments include:
                                                                This report contains a summary of our evaluation of the
  •    Significant strides in remediation of the significant    NCUA’s information security program presented in the OMB
       deficiency noted in the FY2005 report by deploying       prescribed format.

                              15                                                              16
      OIG Semiannual Report              September 2006            OIG Semiannual Report                September 2006




The OIG issued two reports during the past year that            General conducted a review to assess NCUA examiner
reported on the testing of the effectiveness of information     compliance with agency guidance regarding reviews of credit
security and internal controls:                                 union indirect lending programs.

  •    On September 30, 2006, the OIG issued a report           We reviewed a judgmental sample of 36 credit unions. We
       containing an Independent Evaluation of the NCUA’s       concluded that with regard to these sampled credit unions,
       Information Security Program - 2006. The content of      examiners assessed the risk of indirect lending programs for
       the independent evaluation report supports the           all 36. We based our conclusion upon reviews of examiners’
       conclusions presented in this report.                    workpapers and analyses of call report data and key financial
  •    On March 31, 2006, the OIG issued the Financial          ratios and trends.
       Statement Audit Report for the year ended December
       31, 2005. The purpose of this audit was to express       The OIG also assessed whether credit unions were accurately
       an opinion on whether the financial statements were      reporting the existence of indirect lending programs to NCUA.
       fairly presented. In addition, the internal control      We found a need to improve internal controls over 5300 call
       structure was reviewed and an evaluation of              report data, specifically as it relates to indirect lending
       compliance with laws and regulations was performed       programs. The OIG has made two recommendations that
       as part of the audit. The result of this audit was an    should result in improved internal controls over 5300 call
       unqualified opinion, stating that the financial          report data.
       statements were presented fairly. Although there
       were no material weaknesses identified during the
       review of the internal control structures pertinent to   AUDITS IN PROGRESS
       financial reporting, several recommendations were
       made relating to weaknesses in the financial and         RISK FOCUSED EXAMS
       information security areas.
                                                                The National Credit Union Administration expends significant
                                                                resources to ensure the safe and sound operation of Federal
OIG-06-07 – September 27, 2006                                  credit unions. The major NCUA effort in this area is the
REVIEW OF NATIONAL CREDIT UNION ADMINISTRATION                  performance of risk focused examinations (RFE) and
OVERSIGHT OF INDIRECT LENDING PROGRAMS                          supervision. The current RFE program was initiated in 2002.

The National Credit Union Administration has identified         The Office of Inspector General is conducting a national
outsourced indirect lending as a potential high risk program    review of certain aspects of the RFE program. The audit
and the number of credit unions involved in indirect lending    objective is to determine if NCUA has a process in place to
has been increasing. Therefore, the NCUA Office of Inspector

                              17                                                             18
   OIG Semiannual Report                September 2006              OIG Semiannual Report                September 2006



provide assurance that high risk areas are identified and        The Presidents Council on Integrity and Efficiency (PCIE) and
addressed through the risk focused examination process           Executive Council on Integrity and Efficiency (ECIE) jointly
                                                                 developed a data collection instrument and review guide to
OFFICE OF FOREIGN ASSET CONTROL COMPLIANCE REVIEW                assist Inspectors General in determining their agency’s
                                                                 compliance with OMB Memorandum M-06-16. The data
The U.S. Congress has shown an interest in the status of         collection instrument provides a snapshot of NCUA’s progress
financial institutions’ compliance with the Office of Foreign    in meeting OMB M-06-16 as of August 31, 2006. The data
Asset Control (OFAC) foreign sanction requirements.              collection    instrument was    provided    to NCUA     senior
Therefore, the NCUA Office of Inspector General initiated a      management and a representative of the PCIE/ECIE so they
review to determine whether NCUA provides effective              can prepare and issue a consolidated OIG report in
supervision over federally chartered credit unions’ compliance   October 2006.
with OFAC requirements.
                                                                 In addition, we are preparing a narrative OIG report
We are reviewing OFAC compliance requirements and NCUA           expanding on the data collection instrument and including
policies, procedures and guidance related to the examination     more specifics on the progress NCUA has taken in meeting
and supervision of credit unions’ compliance with those          OMB M-06-16 as well as areas for improvement.
requirements.

PRIVACY REVIEW                                                   SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH
                                                                 CORRECTIVE ACTION HAS NOT BEEN COMPLETED
Following numerous incidents involving the compromise or
loss of sensitive personal information, OMB issued               As of September 30, 2006, there were no significant audit
memorandum M-06-16 on June 23, 2006.                       The   recommendations on reports issued over six months ago that
memorandum requires agencies to take specific actions to         have not been either fully implemented or are in the process
protect Personally Identifiable Information (PII) that are       of implementation.
outlined in NIST Special Publication 800-53. In addition, OMB
recommends agencies take four additional actions to protect
sensitive agency information. OMB requested that agencies
ensure that the safeguards outlined in M-06-16 be reviewed
and in place within 45 days (August 7, 2006) from the
issuance of the memorandum. Inspectors General were
also requested to conduct a subsequent review to asses the
agencies compliance.



                             19                                                               20
   OIG Semiannual Report                  September 2006              OIG Semiannual Report                September 2006



            INVESTIGATIVE ACTIVITY                                 our Office Manager, under the direction of our Director of
                                                                   Investigations. The majority of hotline contacts are from
                                                                   consumers seeking help with a problem with a credit union.
In accordance with professional standards and guidelines
                                                                   These contacts are referred to the appropriate NCUA regional
established by the Department of Justice, the OIG conducts
                                                                   office for assistance.    During this reporting period, we
investigations of criminal, civil, and administrative wrongdoing
                                                                   referred 186 consumer complaints to regional offices.
involving agency programs and personnel. Our investigative
program focuses on activities designed to promote economy,
                                                                   In our last two semi annual reports, we reported on Phishing
effectiveness, and efficiency, as well as fighting fraud, waste,
                                                                   attempts made by individuals using the NCUA name and logo
and abuse in agency programs. In addition to our efforts to
                                                                   in an effort to obtain personal and confidential information
deter misconduct and promote integrity awareness among
                                                                   from credit union members. In the last reporting period, the
agency employees, we investigate referrals and direct reports
                                                                   number of reports to our office had dropped to approximately
of employee misconduct. Investigations may involve possible
                                                                   400. During this reporting period, however, the OIG received
violations of regulations regarding employee responsibilities
                                                                   a dramatic increase in complaints. In the past six months,
and conduct, Federal criminal law, and other statutes and
                                                                   our office handled approximately 1100 reports or inquiries
regulations pertaining to the activities of NCUA employees.
                                                                   regarding suspected Phishing attempts, 600 of which required
                                                                   a response from us.
Moreover, we receive complaints from credit union members
and officials that involve NCUA employee program
                                                                   INVESTIGATIONS
responsibilities. We examine these complaints to determine
whether there is any indication of NCUA employee
misconduct. If not, we refer the complaint to the appropriate      During the last reporting period the Office of Investigations
regional office for response, or close the matter if contact       initiated four new investigations and closed two.
with the regional office indicates that the complaint has
already been appropriately handled.                                SEXUAL HARASSMENT
                                                                   The OIG received a complaint that a credit union Examiner
OIG HOTLINE CONTACTS                                               had sexually harassed a credit union manager. The employee
                                                                   was interviewed and acknowledged that he had
The OIG maintains a toll free hotline to enable employees and      inappropriately harassed a female credit union manager. The
citizens to call with information about waste, fraud, abuse or     agency suspended the employee for 30 days.
mismanagement involving agency programs or operations.
We also receive complaints through an off-site post office         FALSE STATEMENTS
box, from electronic mail, and facsimile messages.          All    In our last Semi-Annual Report, we reported on an
information received from any of these sources is referred to      investigation involving a career NCUA Examiner who had
as a hotline contact. The OIG hotline program is handled by        provided false information during a routine background

                              21                                                                22
   OIG Semiannual Report                September 2006              OIG Semiannual Report                September 2006



investigation, and when questioned about the alleged false
information, reiterated his original false statement. The OIG
investigation developed numerous instances spanning twenty
                                                                 LEGISLATIVE AND REGULATORY REVIEWS
years of the employee providing false or misleading
information on official documents.         The employee was
                                                                Section 4(a) of the Inspector General Act requires the
interviewed by the OIG under Kalkines Warnings during which
                                                                Inspector General to review existing and proposed legislation
he provided additional false and misleading information. The
                                                                and regulations relating to the programs and operations of
agency removed the employee and the employee appealed to
                                                                the NCUA and to make recommendations concerning their
the Merit Systems Protection Board (MSPB).            The OIG
                                                                impact. Moreover, we routinely review proposed agency
Director of Investigations and the Inspector General gave
                                                                instructions and other policy guidance, in order to make
depositions and testified at the MSPB hearing. As of the date
                                                                recommendations concerning economy and efficiency in the
of the last semi-annual report, there had been no final
                                                                administration of NCUA programs and operations and the
determination. Since then, the MSPB issued its ruling in the
                                                                prevention and detection of fraud, waste and abuse.
agency’s favor.
                                                                During the reporting period, the OIG reviewed 17 items,
CRIMINAL COMPUTER FRAUD
                                                                including proposed and final legislation and regulations, and
                                                                several NCUA issuances. The OIG submitted comments on
During this reporting period, the OIG received an allegation    one agency Instruction.
that a retired NCUA Examiner may have illegally accessed the
NCUA computer system. A criminal case was initiated and the
OIG invited the FBI to participate. The ensuing joint OIG/FBI
                                                                SUMMARY OF STATUTES AND REGULATIONS REVIEWED
investigation determined that a retired employee, who since        Legislation/E.O.                        Title
retirement had been employed by a credit union, had illegally        H.R. 3206                “Credit Union Charter Choice Act”
accessed confidential credit union information from the NCUA         H.R. 2840           “Federal Agency Protection of Privacy Act”
system. He used the information to assist him in his work            H.R. 5138          Cyber Security Enhancement and Consumer
assignments for the credit union and its wholly owned Credit                                     Data Protection Act of 2006
Union Service Organization, which provides fee-for-service            S. 2856               “Financial Services Regulatory Relief
assistance to other credit unions. The case is being                                                     Act of 2006”
prosecuted by the United States Attorney’s Office, Eastern      Regulations/Rulings                          Title
District of Virginia.                                              12 CFR Part 701        “Chartering and Field of Membership For
                                                                                                   Federal Credit Unions”
                                                                  12 CFR Part 701                   “Loan Interest Rates”
                                                                  12 CFR Part 701            “General Lending Maturity Limit and
                                                                                                  Other Financial Services”
                                                                12 CFR Parts 701, 741       Proposed Rule Regarding Third Party


                             23                                                              24
       OIG Semiannual Report                 September 2006                      OIG Semiannual Report                                September 2006




                                  Servicing of Indirect Vehicle Loans
                                                                                                                     TABLE I
    12 CFR Part 708a          Proposed Rule Regarding Conversion of
                           Insured Credit Unions to Mutual Savings Banks
     12 CFR Part 740            Proposed Rule Regarding Accuracy of                          INSPECTOR GENERAL ISSUED REPORTS
                               Advertising and Notice of Insured Status                           WITH QUESTIONED COSTS
     12 CFR Part 740                 “Revisions to the Official Sign
                                       Indicating Insured Status”                                                              Number of   Questioned Unsupported
     12 CFR Part 745               “Share Insurance and Appendix”                                                               Reports      Costs       Costs

     12 CFR Part 748                  NPR: “Filing Requirements                        For which no management decision
                                   For Suspicious Activity Reports”        A.             had been made by the start
12 CFR Parts 41, 211, 222,        Interagency Proposed Regulation:                          of the reporting period.              0           $0          $0
  334, 364, 571, 717, 681       “Identity Theft Red Flags and Address                            Which were issued
                                   Discrepancies under the Fair and        B.
                                                                                          during the reporting period.            0            0           0
                              Accurate Credit Transactions Act of 2003”
                                                                                                 Subtotals (A + B)                0            0
    Agency Issuances                              Title
   Proposed IRPS 06-02                   Chartering and Field of           C.           For which management decision
                                       Membership Amendments                      was made during the reporting period.           0            0           0
 Instruction 3212.4 (Rev.)   Freedom of Information Act Compliance and          (i)      Dollar value of disallowed
                             Procedures for Processing FOIA Requests                     costs                                    0            0           0
        Draft Instruction   Credit Worthiness Evaluations and Training          (ii)        Dollar value of
                                Requirements for Government Issued                            costs not disallowed                0            0           0
                                             Charge Cards                              For which no management decision
                                                                           D.                    has been made by
                                                                                         the end of the reporting period.         0            0           0
                                                                                       Reports for which no management
                                                                           E.                    decision was made
                                                                                         within six months of issuance.           0            0           0


                                                                            Questioned costs are those costs the OIG has questioned because of
                                                                            alleged violations of laws, regulations, contracts, or other agreements;
                                                                            findings which at the time of the audit are not supported by adequate
                                                                            documentation; or the expenditure for the intended purpose is unnecessary
                                                                            or unreasonable.
                                                                            Unsupported costs (included in "Questioned Costs") are those costs the OIG
                                                                            has questioned because of the lack of adequate documentation at the time
                                                                            of the audit.



                                  25                                                                                      26
       OIG Semiannual Report                             September 2006            OIG Semiannual Report                               September 2006




                                   TABLE II                                                                  TABLE III

     INSPECTOR GENERAL ISSUED REPORTS WITH                                                       SUMMARY OF OIG ACTIVITY
 RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE                                      APRIL 1, 2006 THROUGH SEPTEMBER 30, 2006
                                                           Number of   Dollar
                                                            Reports    Value                    PART I – AUDIT REPORTS ISSUED
                                                                                Report                                                              Date
            For which no management decision had                                Number                           Title                             Issued
  A.
        Been made by the start of the reporting period.       0         $0
                                                                                                    Independent Evaluation of NCUA
                                                                                OIG-06-05                                                        9/29/2006
                                                                                                      Information Security Program
  B.     Which were issued during the reporting period.       0          0
                                                                                                   OIG Report to OMB on the NCUA
                                                                                OIG-06-06   Compliance with the Federal Information Security     9/29/2006
                         Subtotals (A + B)                    0          0                              Management Act 2006
                                                                                                     Review of NCUA’s Oversight of
                                                                                OIG-06-07                                                        9/27/2006
          For which management decision was made                                                       Indirect Lending Programs
  C.
                    during the reporting period.              0          0

                                                                                    PART II – AUDITS IN PROGRESS             (as of September 30, 2006)
          (i)          Dollar value of recommendations
                    agreed to by management.                 N/A        N/A                                        Risk Focused Exams
                                                                                                    Office of Foreign Asset Control Compliance review
          (ii)         Dollar value of recommendations                                                                Privacy review
                   not agreed to by management.              N/A        N/A


         For which no management decision was made
  D.
                 by the end of the reporting period.          0          0


         For which no management decision was made
  E.
                   within six months of issuance.             0          0

Recommendations that "Funds to be Put to Better Use" are those OIG
recommendations that funds could be used more efficiently if management
took    actions    to     reduce    outlays,      de-obligate    funds from
programs/operations, avoid unnecessary expenditures noted in pre-award
reviews of contracts, or any other specifically identified savings.



                                          27                                                                         28
   OIG Semiannual Report                          September 2006




 INDEX OF REPORTING REQUIREMENTS

SECTION                    DATA REQUIRED                           PAGE REF
 4(a)(2)              Review of Legislation and Regulations           24
                                                                              WE WANT TO HEAR FROM YOU
 5(a)(1)          Significant Problems, Abuses, or Deficiencies       15
                Relating to the administration of programs and                Call our toll-free hotline to report
               Operations disclosed during the reporting period.
 5(a)(3)         Recommendations with Respect to Significant          15            fraud, waste, or abuse:
                        Problems, Abuses, or Deficiencies.
 5(a)(3)           Significant Recommendations Described in
                     Previous Semiannual Reports on Which
                                                                      20
                                                                                      1-800-778-4806
                  Corrective Action Has Not Been Completed.
 5(a)(4)         Summary of Matters Referred to Prosecution          None          WASHINGTON METRO AREA
                   Authorities and Prosecutions, Which Have
                                      Resulted.                                           703-518-6357
 5(a)(5)        Summary of Each Report to the Board Detailing        None
                  Cases Where Access to All Records Was Not                                  or write:
                 Provided or Where Information Was Refused.
 5(a)(6)             List of Audit Reports Issued During the          28       National Credit Union Administration
                                  Reporting Period.
 5(a)(7)          Summary of Particularly Significant Reports.        15          Office of the Inspector General
 5(a)(8)             Statistical Tables on Audit Reports With         26
                                 Questioned Costs.                                       P.O. Box 25705
 5(a)(9)             Statistical Tables on Audit Reports With         27
                    Recommendations That Funds Be Put To                           Alexandria, VA 22313-5705
                                     Better Use.
5(a)(10)       Summary of Each Audit Report Issued Before the        None
           Start Of the Reporting Period for Which No Management
             Decision Has Been Made by the End of the Reporting                   You may call ANONYMOUSLY,
                                       Period.
5(a)(11)           Description and Explanation of Reasons for        None       or request that YOUR call be kept
                 any Significant Revised Management Decision
                       Made During the Reporting Period.                                 CONFIDENTIAL
5(a)(12)       Information Concerning Significant Management         None
                 Decisions With Which the Inspector General is
                                  in Disagreement.
                                                                                OIG reports and other information
                                                                                are available at www.ncua.gov/oig


                                    29
